     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684
December 28, 2010

Report Number: A-01-10-00517

Ms. Sherrie D. LeMier
Chief Executive Officer
Cahaba Government Benefit Administrators
300 Corporate Parkway
Birmingham, Alabama 35242

Dear Ms. LeMier:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Jurisdiction 10 Payments for Inpatient
Rehabilitation Facility Claims Billed with Patient Status Code 05 for Calendar Year 2007. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-10-00517 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sherrie D. LeMier

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



         REVIEW OF
 JURISDICTION 10 PAYMENTS
       FOR INPATIENT
  REHABILITATION FACILITY
CLAIMS BILLED WITH PATIENT
    STATUS CODE 05 FOR
   CALENDAR YEAR 2007



                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-01-10-00517
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Section 1886(j) of the Social Security Act (the Act) established a Medicare prospective payment
system for inpatient rehabilitation facilities (IRF). The system provides for a predetermined, per-
discharge payment. The IRF uses information from a patient assessment instrument to classify
patients into distinct case-mix groups based on clinical characteristics and expected resource use.
Medicare makes a full case-mix-group payment to an IRF that discharges a beneficiary to home
or to another institution that is not covered by Medicare’s transfer regulations. However,
pursuant to 42 CFR §412.624(f), Medicare pays a lesser amount, based on a per diem rate and
the number of days that the beneficiary spent in the IRF, for a transfer case. Federal regulations
define a transfer case as one in which:

    •   the beneficiary’s IRF stay is shorter than the average stay for the non-transfer cases in the
        case-mix group and

    •   the beneficiary is transferred to another IRF, a long-term-care hospital, an acute-care
        inpatient hospital, or a nursing home that accepts payment under the Medicare program
        or the Medicaid program.

IRFs use patient status codes to designate that a transfer is subject to the transfer regulation.
Patient status codes also indicate the type of institution, e.g., inpatient hospital or skilled nursing
facility, to which a beneficiary is transferred. Medicare makes per-diem transfer payments for
claims submitted with these codes. IRFs use patient status code 05 to indicate that the
beneficiary was “discharged/transferred to another type of institution not defined elsewhere.”
Medicare makes a full case-mix-group payment for claims submitted with this code.

During our audit period, calendar year (CY) 2007, CMS contracted with Cahaba Government
Benefit Administrators (Cahaba), Riverbend Government Benefit Administrators (Riverbend)
and Blue Cross and Blue Shield of Georgia (BCBS of Georgia) to serve as fiscal intermediaries
(FI) for certain states covered by our review.

Under these contracts, Cahaba, Riverbend, and BCBS of Georgia processed and paid Medicare
claims submitted by institutional providers. In 2009, CMS awarded Cahaba the Part A and B
Medicare Administrative Contractor contract for Jurisdiction 10 which includes areas covered by
Riverbend and BCBS of Georgia during CY 2007. Our review covered 54 Medicare Part A
claims totaling $1,067,602 during CY 2007 with patient status code of 05 that were submitted by
31 IRFs in 12 states.

OBJECTIVE

Our objective was to determine whether IRFs correctly coded claims paid by Cahaba, Riverbend,
and BCBS of Georgia with patient status code 05.




                                                   i
SUMMARY OF FINDING

IRFs incorrectly coded 19 of the 54 claims that we reviewed with patient status code 05. These
beneficiaries were actually transferred to facilities that were subject to the Medicare transfer
regulations, e.g., inpatient hospitals, skilled nursing facilities, and Medicaid-only nursing homes.
Because the IRFs did not use the appropriate transfer codes on these claims, Cahaba, Riverbend,
and BCBS of Georgia made $185,153 in overpayments for miscoded transfers to 15 IRFs in CY
2007. As a result of our audit work, an IRF has already refunded $5,882 for one of the 19
claims, leaving $179,271 in uncollected overpayments.

The overpayments occurred because IRFs did not have adequate controls to ensure the correct
use of patient status 05. In addition, Medicare payment controls in the Common Working File
were not adequate to prevent or detect these overpayments until CMS established the necessary
edit in April 2007.

RECOMMENDATIONS

We recommend that Cahaba:

   •   recover the $179,271 in outstanding overpayments for 18 claims and

   •   alert IRFs to the importance of reporting the correct patient status code on their claims.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS

In comments on our draft report, Cahaba concurred with our recommendations and described the
corrective actions that it was taking or planned to take. Cahaba’s comments are included in their
entirety as the Appendix.




                                                 ii
                                                     TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              The Prospective Payment System for Inpatient Rehabilitation Facilities .....1
              Transfer Payments .........................................................................................1
              Prior Office of Inspector General Reviews ...................................................2
              Contracts for Processing Medicare Part A Claims ........................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
              Objective .......................................................................................................2
              Scope .............................................................................................................2
              Methodology .................................................................................................3

FINDING AND RECOMMENDATIONS .......................................................................4

          PROGRAM REQUIREMENTS ..............................................................................4

          PAYMENTS BASED ON INCORRECT PATIENT STATUS CODE ..................4

          CAUSES OF OVERPAYMENTS ...........................................................................5

          RECOMMENDATIONS .........................................................................................5

          CAHABA GOVERNMENT BENEFIT ADMINSTRATORS COMMENTS……5

APPENDIX

          CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The Prospective Payment System for Inpatient Rehabilitation Facilities

Inpatient rehabilitation facilities (IRF) provide rehabilitation for patients who require a hospital
level of care, including a relatively intense rehabilitation program and an interdisciplinary,
coordinated team approach to improve their ability to function. Section 1886(j) of the Social
Security Act (the Act) established a Medicare prospective payment system for IRFs. The
Centers for Medicare & Medicaid Services (CMS), which administers the Medicare program,
implemented the prospective payment system for cost-reporting periods beginning on or after
January 1, 2002. The system provides for a predetermined, per-discharge payment. The IRF
uses information from a patient assessment instrument to classify patients into distinct case-mix
groups based on clinical characteristics and expected resource use.

Transfer Payments

Under the IRF prospective payment system, Medicare makes a full case-mix-group payment to
an IRF that discharges a beneficiary to home or to another institution that is not covered by
Medicare’s transfer regulations. However, pursuant to 42 CFR §412.624(f), Medicare pays a
lesser amount, based on a per diem rate and the number of days that the beneficiary spent in the
IRF, for a transfer case. Federal regulations define a transfer case as one in which:

   •   the beneficiary’s IRF stay is shorter than the average stay for the non-transfer cases in the
       case-mix group and

   •   the beneficiary is transferred to another IRF, a long-term-care hospital, an acute-care
       inpatient hospital, or a nursing home that accepts payment under the Medicare program
       or the Medicaid program.

Whether Medicare makes a full case-mix group payment or a transfer payment depends on the
patient status code on the IRF’s claim. IRFs use several different patient status codes to
designate transfer to a specific institution that is subject to the transfer regulation: 02 – short-
term inpatient hospital; 03 – skilled nursing facility; 61 – hospital-based, Medicare-approved
swing bed within the IRF; 62 – another IRF; 63 – long-term-care hospital; and 64 – a Medicaid-
only nursing facility. Medicare makes per-diem transfer payments for claims submitted with any
of these codes.

IRFs use patient status code 05 to indicate that the beneficiary was “discharged/transferred to
another type of institution not defined elsewhere.” Medicare makes a full case-mix-group
payment for claims submitted with this code.




                                                  1
Prior Office of Inspector General Reviews

Two prior Office of Inspector General reviews of improperly coded IRF transfers 1 found that
IRFs did not always code claims in compliance with Medicare's transfer regulation. Together,
these two reviews identified $14.3 million in potential overpayments for miscoded claims. Both
reports recommended that CMS implement an edit to its Common Working File to prevent future
overpayments for transfer cases. CMS agreed with the findings and recommendations.

In response to these reviews, CMS implemented an edit in its Common Working File in April
2007. The edit matches beneficiary discharge dates with admission dates of other providers to
identify potentially miscoded claims. Claims identified as transfers are cancelled and returned to
the IRF for correction.

Contracts for Processing Medicare Part A Claims

During our audit period, calendar year (CY) 2007, CMS contracted with Cahaba Government
Benefit Administrators (Cahaba) to serve as the Medicare Part A fiscal intermediary (FI) in 22
states including Alabama, Arizona, Arkansas, California, Florida, Illinois, Indiana, Kentucky,
Maine, Maryland, Massachusetts, Missouri, New Hampshire, New Jersey, New Mexico,
Pennsylvania, South Carolina, Tennessee, Texas, Utah, Virginia, and West Virginia.

During CY 2007, CMS also contracted with Riverbend Government Benefit Administrators
(Riverbend) and Blue Cross and Blue Shield of Georgia (BCBS of Georgia) to serve as the FIs in
various states including Tennessee and Georgia respectively

Under these contracts, Cahaba, Riverbend, and BCBS of Georgia processed and paid Medicare
claims submitted by institutional providers. In 2009, CMS awarded Cahaba the Part A and B
Medicare Administrative Contractor contract for Jurisdiction 10 which includes areas covered by
Riverbend and BCBS of Georgia during CY 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IRFs correctly coded claims paid by Cahaba, Riverbend,
and BCBS of Georgia with patient status code 05.

Scope

Our review covered 54 Medicare Part A claims totaling $1,067,602 during CY 2007 with patient
status code of 05 that were submitted by 31 IRFs in 12 states including Alabama, California,
Georgia, Maryland, Massachusetts, New Jersey, Pennsylvania, South Carolina, Tennessee,


1
 Nationwide Review of Inpatient Rehabilitation Facilities’ Compliance with Medicare’s Transfer Regulation
(A-04-04-00008, September 11, 2006) and Nationwide Review of Inpatient Rehabilitation Facility Claims Coded as
“Discharged to Home with Home Health Agency Services” (A-04-04-00013, November 2, 2006).


                                                      2
Texas, Virginia, and West Virginia. We limited our review to claims for shorter than average
stays.

Our objective did not require an understanding or assessment of the complete internal control
structure of IRFs or the Medicare Contractors that processed the claims. Therefore, we limited
our review to (1) obtaining an understanding of IRFs’ procedures for coding claims with patient
status code 05, and (2) Cahaba’s policies and procedures for reviewing claims identified by
CMS’s edit in the Common Working File.

Our fieldwork consisted of contacting Cahaba and the 31 IRFs that submitted the 54 claims. We
conducted our fieldwork from May through September 2010.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and CMS manuals regarding IRF
       transfers;

   •   extracted IRF paid claims data from CMS’s National Claims History File for CY 2007;

   •   identified 54 IRF claims paid by Cahaba, Riverbend, and BCBS of Georgia with a patient
       status code of 05 by removing claims for beneficiaries whose lengths of stay were equal
       to or greater than the average length of stay per case-mix group;

   •   reviewed CMS’s Common Working File claims history for the 54 claims to determine
       whether the claims were correctly coded as “05” and to verify that the selected claims
       had not been canceled;

   •   contacted representatives of the 31 IRFs that submitted the selected claims to verify
       whether the claims were correctly coded and to determine the causes of miscoding;

   •   contacted nine institutions that admitted the beneficiaries after the IRF transfer but did
       not submit Medicare claims for those stays to determine whether they accepted Medicare
       or Medicaid;

   •   used CMS’s PRICER program to assist in determining the payment error amounts; and

   •   discussed the results of our review with officials of the IRFs and Cahaba.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.



                                                3
                           FINDING AND RECOMMENDATIONS

IRFs incorrectly coded 19 of the 54 claims that we reviewed with patient status code 05. These
beneficiaries were actually transferred to facilities that were subject to the Medicare transfer
regulations, e.g., inpatient hospitals and skilled nursing facilities. Because the IRFs did not use
the appropriate transfer codes on these claims, Cahaba, Riverbend, and BCBS of Georgia made
$185,153 in overpayments for miscoded transfers to 15 IRFs in CY 2007.

Overpayments occurred because of clerical errors and computer programming errors at the IRFs.
In addition, Medicare payment controls in the Common Working File were not adequate to
prevent or detect these overpayments until CMS established the necessary edit in April 2007.

PROGRAM REQUIREMENTS

Section 1886(j)(1)(E) of the Social Security Act authorized the Secretary of the Department of
Health and Human Services to adjust prospective payments to account for the early transfer of a
beneficiary from an IRF to another site of care. Pursuant to implementing regulations (42 CFR
§§412.602 and 412.624(f)(1)), IRFs receive an adjusted prospective payment if (1) the
beneficiary’s stay in the IRF is shorter than the average stay for the given case-mix group and (2)
the beneficiary is transferred from an IRF to another IRF, a long term care hospital, an acute-care
inpatient hospital, or a nursing home that accepts payment under either the Medicare or Medicaid
programs.

Pursuant to 42 CFR §412.624(f)(2), Medicare pays for transfer cases on a per diem basis. CMS
calculates the per diem payment rate by dividing the full case-mix-group payment rate by the
average length of stay for the case-mix group. CMS then multiplies the per diem rate by the
number of days that the beneficiary stayed in the IRF before being transferred. Medicare makes
an additional half-day payment for the first day.

The Medicare Claims Processing Manual (the Manual), chapter 3, section 140.3, and chapter 25,
section 75.2, lists the patient status codes that identify a transfer case, the code definitions, and
examples of appropriate use. When an IRF uses these transfer codes, the claims processing
system generates a per diem transfer payment to the IRF rather than a full case-mix-group
payment.

PAYMENTS BASED ON INCORRECT PATIENT STATUS CODE

IRFs incorrectly coded 19 of the 54 claims that we reviewed with patient status code 05. These
beneficiaries were actually transferred to facilities that were subject to the Medicare transfer
regulations, e.g., inpatient hospitals and skilled nursing facilities. Because the IRFs did not use
the appropriate transfer codes on these claims, Cahaba, Riverbend, and BCBS of Georgia made
$185,153 in overpayments for miscoded transfers to 15 IRFs in CY 2007.

As a result of our audit, IRFs have already refunded $5,882 for one of the 19 claims, leaving
$179,271 in uncollected overpayments.



                                                  4
CAUSES OF OVERPAYMENTS

The overpayments occurred because IRFs did not have adequate controls to ensure the correct
use of patient status code 05. In addition, until April 2007, CMS’s Common Working File did
not contain the necessary edit to compare the date on which a beneficiary was discharged from
an IRF with the date on which the beneficiary was admitted to another institution.

RECOMMENDATIONS

We recommend that Cahaba:

   •   recover the $179,271 in outstanding overpayments for 18 claims and

   •   alert IRFs to the importance of reporting the correct patient status code on their claims.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS

In comments on our draft report, Cahaba concurred with our recommendations and described the
corrective actions that it was taking or planned to take. Cahaba’s comments are included in their
entirety as the Appendix.




                                                 5
APPENDIX
                                    APPENDIX: CAHABA GBA COMMENTS                                                 Page 1 of1



      CAHABA 

 GO V ERNMENT 

      BENE F IT 

A D MI N IST RATORS , LL C 



        December 17, 2010




        Attention: Michael J. Armstrong, Regional Inspector General 

        For Audit Services 

        Department of Health and Human Services 

        Office of Inspector General 

        Region I 

        John F. Kennedy Federal Building, Room 2425 

        Boston, MA 02203 


        RE: Report Number A-Ol-l0-00s17 Review of Jurisdiction 10 Payments for Inpatient Rehabilitation
        Facility Claims Billed with Patient Status Code OS for Calendar Year 2007

        Dear Mr. Armstrong,

        This report is in response to the draft report issued to Cahaba Government Benefit Administrations .,
        LLC's (Cahaba GBA) for the above mentioned audit.

        Since receiving both the notification letter and related spreadsheet information, Cahaba reviewed and
        adjusted the claim lines as needed. In addition, an alert regarding patient status code will be sent to all
        providers.

        If you should have any questions regarding the report, please contact Molly Echols, Compliance officer
        at (205) 220-1587 or via email atMechols@cahabagba.com.




        Compliance Officer 

        Cahaba Government Benefit Administrations ., lLC 


        CC: 	 Sherrie D. leMier, President and COO, Cahaba GBA 

              Brandon Ward, Vice President of Operations, Cahaba GBA 

              Jim Hill, Divisional Manager, Cahaba GBA 

              David Brown, Chief Strategy Officer, Cahaba GBA 





                                       Calw ba Gove rn ment Bt' Ill'ti t Ari minis u'a lors', LLC 

                                 ')00 Cor pol'Clle Parkway' Birmingham , Alabarna 35242-5425 

                                             ,\ C\JS \1l'c1 lcure Atl m .itl isll'a lil·" CO ll tri} !.'io l' 

